<html>
<title> - U.S. DISENGAGEMENT FROM LATIN AMERICA: COMPROMISED SECURITY AND ECONOMIC INTERESTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 U.S. DISENGAGEMENT FROM LATIN AMERICA:
                        COMPROMISED SECURITY AND
                           ECONOMIC INTERESTS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 25, 2014

                               __________

                           Serial No. 113-136

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/



                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-335                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197e6976597a6c6a6d717c7569377a767437">[email&#160;protected]</a>  

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida<greek-l>       THEODORE E. DEUTCH, Florida
TREY RADEL, Florida--resigned 1/27/  ALAN GRAYSON, Florida
    14 deg.


                            C O N T E N T S


                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Otto J. Reich, president, Otto Reich Associates, 
  LLC............................................................     7
Mr. Ilan I. Berman, vice president, American Foreign Policy 
  Council........................................................    23
Mr. Mauricio Claver-Carone, executive director, Cuba Democracy 
  Advocates......................................................    35
Mr. Michael Shifter, president, Inter-American Dialogue..........    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Otto J. Reich: Prepared statement..................    10
Mr. Ilan I. Berman: Prepared statement...........................    26
Mr. Mauricio Claver-Carone: Prepared statement...................    38
Mr. Michael Shifter: Prepared statement..........................    46

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69


                 U.S. DISENGAGEMENT FROM LATIN AMERICA:
                        COMPROMISED SECURITY AND
                           ECONOMIC INTERESTS

                              ----------                              


                        TUESDAY, MARCH 25, 2014

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:10 p.m., in 
room 2255 Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. We have kept everybody waiting for quite some 
time and so without objection, with unanimous consent, a quorum 
being present, the subcommittee will come to order, and I am 
going to start by recognizing myself, since I am the only one 
here, and then I believe the ranking member will be coming as 
well.
    We just had a series of votes on the floor and it is that 
time of year. But without objection, the members of the 
subcommittee can submit their opening remarks for the record 
and I am going to yield myself as much time as I may consume to 
present an opening statement.
    Good afternoon and welcome to this hearing where we will 
have the opportunity to discuss the United States' 
disengagement from Latin America, and what the long and short 
term implications are of that disengagement.
    Just 2 weeks ago, Secretary of State John Kerry testified 
before the full Foreign Affairs Committee on the State 
Department's Fiscal Year 2015 budget where he failed to even 
mention the Western Hemisphere, our hemisphere, in his opening 
remarks.
    The point that I made to the Secretary was that the 
administration needs to come up with a coherent strategy for 
the region, one that considers our national security and 
commercial interests, and one that celebrates and supports the 
aspirations of individuals seeking liberty and the respect of 
democratic principles.
    The Secretary's failure to even mention our own hemisphere 
is particularly disconcerting when we consider everything that 
is going on in the region--the fact that Cuba continues to 
repress its people and and has been caught violating U.N. 
sanctions and shipping weapons to North Korea through the 
Panama Canal, that Venezuelan President Maduro has been 
violently crushing legitimate democratic protests, the wave of 
antagonism to us and our interests emanating from Ecuador, 
Bolivia and elsewhere that our strategic adversaries such as 
Russia, Iran and China have taken of note--taken note of our 
absence in the region and are establishing footholds right here 
in our neighborhood.
    Instead of addressing this strategic failure, the 
administration is focused on climate change initiatives, 
funding solar panel projects in the highlands regions of 
Guatemala and elsewhere on the taxpayer's dime.
    Sadly, when I mentioned these concerns to Secretary Kerry, 
he spent his entire time pontificating about the environment in 
the Pacific Islands and a typhoon in the Philippines, further 
making my point that we are taking our eye off the ball on the 
Western Hemisphere and focusing on other things and, clearly, 
showing a lack of strategy for the Western Hemisphere.
    Not one word in his response to me about the Western 
Hemisphere. So I have convened today's hearing because I am 
deeply concerned about the administration's neglect affecting 
our commercial interests in that region and undermining our 
ability to defend liberty and economic freedom for those in 
Cuba, Venezuela and elsewhere where basic democratic rights 
have been taken away in exchange for statism and 
authoritarianism.
    I am also concerned that our disengagement has invited the 
likes of Russia to increase foreign military sales while 
establishing strategic bases in Venezuela, Nicaragua and Cuba. 
It has allowed Iran to build its diplomatic and cultural 
presence in an effort to skirt sanctions and establish a 
presence close to our borders.
    These realities should be the foremost on our minds of our 
foreign policy makers at the State Department, more so, I dare 
say, than the prospect of climate change.
    And I don't say that to denigrate the concern for proper 
stewardship of our environment. I think we all care about that. 
It is about priorities. It is a major policy failure, I 
believe, of this administration to prioritize climate change 
projects over our strategic and diplomatic posture in the 
Western Hemisphere, and it is shameful for us to stand by and 
watch the violations of basic human rights and democratic 
values seen in Venezuela because of the naive belief by this 
administration that the OAS or other multilateral organizations 
can be counted on even one time to defend freedom where it is 
being threatened.
    Secretary Kerry showcased this naivete when he announced 
the end of Monroe Doctrine before the OAS late last year, 
subjugating U.S. vital interests in the region to the whims of 
an organization that has long been hijacked by the anti-
democratic populace of the hemisphere.
    I am looking forward to hearing from our witnesses today. 
Ambassador Reich, I deeply respect you and I appreciate your 
service as our Ambassador to Venezuela. I believe you 
understand better than most the corroding effect on democratic 
values that the Bolivarian Revolution has had on the region.
    Mr. Ilan Berman, who will testify to the presence of 
external actors establishing a presence in our hemisphere, and 
Mr. Claver-Carone, who has studied what has been best described 
to me as Cuban cancer that metastasized around the region, 
creating anti-democratic environments in certain parts of Latin 
America where freedom of expression and basic democratic values 
are systematically being violated.
    I focus most of my attention as chairman of this 
subcommittee on the positive developments coming out of the 
hemisphere--the Pacific Alliance, growing trade and investment 
opportunities in Mexico, Peru and elsewhere, and the real and 
important prospect of energy security and independence in North 
America.
    However, we will squander those opportunities if we 
continue to neglect the region through lack of sound, strategic 
policy, policy that reflects this country's commitment to the 
defense of liberty and economic freedom, and our willingness to 
defend those values and our vital national interests.
    As I said to Secretary Kerry when he was up on the Hill 2 
weeks ago, around the world and, indeed, even in our own 
hemisphere, liberty and economic freedom are being threatened 
by tyrants.
    People yearning for freedom are looking to the U.S. for our 
leadership in defense of liberty, but instead, this 
administration is offering solar panels through costly USAID 
projects.
    This is an affront to the U.S. taxpayer and an insult to 
those seeking freedom. We can and we must do much better. I am 
eager to hear how the lack of U.S. strategy and leadership in 
the Western Hemisphere has affected our ability to defend these 
values, while protecting our interests and the interests of our 
neighbors.
    In the coming weeks, this subcommittee will have the 
opportunity to question the administration more directly about 
Western Hemisphere policy or lack thereof during a budget 
oversight hearing.
    What we glean from your testimony today, Ambassador Reich, 
Mr. Berman, Mr. Claver-Carone and Mr. Shifter, will be 
instrumental in our ability to challenge the administration's 
lack of strategic vision and offer a new way forward.
    I don't typically get negative in these kinds of hearings 
but I am really disgusted, I am, by the lack of any kind of 
clear vision or policy in the Western Hemisphere. And while I 
talk about this whole movement in the Western Hemisphere toward 
more climate change issues, I am not against talking about 
environmental policies at work.
    I think that is prudent and smart. But on the scale of 
priorities, when we are looking at people being killed in the 
streets in Venezuela, when we look at arms being smuggled by 
Cuba to North Korea, on the relative scale of what is important 
are we really focusing our attention on the things that really 
matter? That is why we are holding this hearing today.
    It is not just to cast aspersions, but to actually try to 
find a way that we can engage together to try to focus on our 
own neighborhood and make things better for all concerned, and 
I yield to the ranking member.
    Mr. Sires. Thank you, Mr. Chairman.
    Good afternoon, and thank you to the witnesses for being 
here. Thank you for your patience with our vote.
    I believe it is fair to acknowledge that the number, nature 
and complexity of foreign policy challenges facing the United 
States today is the greatest it has been since 9/11.
    For the past 13 years our foreign policy mostly focused on 
crises outside our hemisphere. This is perhaps no less true 
today where in Eastern Europe we have Russia acting as if the 
Cold War had never ended.
    As foreign challenges have evolved, so too have our 
diplomatic, economic, and when necessary, our military means to 
respond. Nonetheless, this focus elsewhere, however 
understatable, has come at the detriment of our policy toward 
the Americas and the hemisphere as a whole.
    As a consequence, we have not paid appropriate attention to 
an area that is next door in our hemisphere. Human rights 
abuses, intimidation, threats to democracy or loss of life are 
no less relevant and just as wrong whether they occur in Syria, 
North Korea, 90 miles south in Havana or in Venezuela.
    Some experts view U.S. foreign policy toward Latin America 
as adrift and far too narrow in scope. I agree that our 
problems have risen. Our responses have been reactive rather 
than proactive.
    As bearer of democracy, liberty and economic freedom we 
have failed when our foreign policy is dictated by yesterday's 
news headlines. On one hand, today all nations in the 
hemisphere, with the exception of Cuba, are elected 
democracies.
    On the other, we have witnessed a proliferation of 
electoral authoritism where democratic institutions exist but 
are severely abused by the executive.
    We see this specifically in countries like Venezuela, 
Ecuador, Bolivia and Nicaragua. We have also witnessed a unique 
period of political stability and economic vibrancy that has 
translated to greater regional autonomy with a diverse economic 
and diplomatic portfolio. Foreign actors such as China, India 
and Europe have now become significant trading partners for 
some of Latin America's largest economies.
    There are new regional associations such as ALBA, the 
Bolivarian Alliance for the Peoples of Our America-People's 
Trade Treaty, and CELAC, the Community of Latin American and 
Caribbean States, that not only exclude the United States but 
have mostly been utilized as mediums to espouse and advocate 
anti-Americanism.
    Russia has dubiously increased military exercises in the 
region and Iran continues to expand its influence. While such 
an agreement should never have come to light, President 
Kirchner's decision to undo the so-called joint truth 
commission with Iran is a step in the right direction.
    I am adamant the U.S. must maintain pressure on Cuba's 
authoritative regime, expose its continued human rights and 
press freedom violations, blatant disregard for U.N. arms 
sanctions and press for the release of Alan Gross.
    In regards to Venezuela, I have joined my colleagues in 
calling for an end to violence in supporting the people of 
Venezuela's right to express their frustration to the 
deteriorating economy, public safety and political conditions 
in their country.
    Rather than allow the space and freedom for peaceful 
demonstration, President Maduro has instead utilized oppressive 
Cuban tactics in silencing the media, detaining anti-government 
demonstrators and opposing leaders.
    Mr. Maduro and the Government of Venezuela need to address 
the grievances of its people through dialogue, and respect 
freedom of expression and assembly as the basic human rights 
and principles of a democratic society.
    It is unacceptable that various member states of the OAS 
who champion their respects of human and civil rights have 
chosen to ignore the abuses occurring in Venezuela and have 
prevented the OAS from taking any meaningful action against the 
Government of Venezuela.
    These nations value Venezuela's cheap oil and petrol 
dollars more than human rights and the unfortunate loss of life 
that has occurred. To the leaders of these nations, I say that 
the world is watching, and that the U.S. and this Congress, in 
particular, will not forget.
    I call on the administration to utilize and exhaust all 
diplomatic and economic tools at its disposal to act 
accordingly against those individuals responsible for the 
unnecessary and unwarranted acts of violence against the 
Venezuelan people.
    U.S. inaction will speak louder than any anti-America 
rhetoric espoused by blind nations on the wrong side of 
history. Thank you.
    Mr. Salmon. Thank you. Mr. Duncan.
    Mr. Duncan. Just real briefly, first off I will say that I 
share the chairman's opinion that this is Venezuela's 1776 
moment where you have a people that are urging and really 
yearning to be free and have more self-governance.
    But when we witnessed, just recently, President Maduro 
encouraging Venezuelan citizens to begin Carnival early while 
thousands stood in line for the basic subsistence which they 
would have trouble finding on the grocery shelves, this likened 
sort of to Marie Antoinette's ``let them eat cake'' statement.
    It shows how out of touch Maduro is with just the basic 
needs of the Venezuelans. So maybe history will show that this 
is Maduro's ``let them eat cake'' moment and hopefully we as 
Americans can support the folks that want to be free, and want 
to govern themselves and Venezuela.
    So I thank the gentlemen for being here. I know this isn't 
just focused on Venezuela but that is what is on my mind today. 
I yield back.
    Mr. Salmon. Thank you. Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. And let me just say 
that this is a timely discussion and I want to thank the 
witnesses that are here and look forward to having a dialogue 
with you, doing the questions and answers and hearing your 
testimony.
    I got elected to Congress in 1998, and from 1998 until 
today I have long said that we have not engaged Latin America, 
South America, the Caribbean, and Central America in the 
methods that we should.
    Oftentimes we looked at our friends, our neighbors to the 
south in the manner that we were looking through the prism of 
when we were in the Cold War, that we had not changed many of 
our policies toward them, that we had not moved forward and we 
were not engaged with them and that we needed to focus on our 
neighbors to the south because they are our neighbors.
    We share this hemisphere. They are very important, and if 
we didn't do it then others would come and they would try to 
invest and influence and be involved in their matters because 
we are leaving a vacuum, and that the nations in Central and 
South America were looking for different types of 
relationships, not a master-servant relationship but a 
relationship where they were recognized for growing and moving 
and trying to move toward democracy and making sure that all 
people within those communities and within those countries will 
have an opportunity to have their voices heard, not just 
someone to be utilized by us when we thought that it would be 
to our strategic interest.
    We still need to be sure that we are engaging with our 
colleagues and our friends and our neighbors who share this 
hemisphere with us. It is absolutely important and we must talk 
to them, not at them, so that we can begin to figure out how we 
can work collectively together to make this hemisphere better.
    Otherwise, others will take advantage. Others will try to 
divide the hemisphere. It can then cause us to have some 
national security interests.
    So I was pleased when we have had conferences that I have 
attended and seen the nations come and we have had various 
groups going to talk and to try to figure out how do we do this 
thing.
    How do we work in a manner of bringing folks together, of 
understanding to some degree some different ethnicities, some 
different histories, so that we can work together to make our 
hemisphere stronger.
    So I say that is why I think that if we are going to have a 
real dialogue, and I probably differ than many when I see, I 
believe, a failed policy with reference to one of the Caribbean 
countries for over 50 years, I want that regime to change. But 
I want something that works because it hasn't. I think the time 
for that conversation is to be had.
    How do we make effective change and how do we work together 
to get it done? So I look forward to hearing the testimony. I 
look forward to working with my colleagues who all, I believe, 
have good intentions and want to make sure that we have a good 
relationship with many of the countries in the hemisphere so 
that we can make a difference. I think the time has finally 
come.
    The time is right for us to do it and I look forward to 
working collectively to get it done, and I yield back.
    Thank you.
    Mr. Salmon. Thank you.
    I recognize the gentlewoman from Florida, Ms. Ileana Ros-
Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    And I, like so many of our colleagues here, I am extremely 
worried about our lack of attention to the many threats to 
democracy in our own hemisphere.
    In Venezuela, the death toll is at 34, and continues to 
climb with nearly 60 reported cases of torture, over 1,500 
people unjustly detained, hundreds more injured, and the nexus 
between Cuba and Venezuela continues to threaten regional 
stability. It frightens freedom-loving people who are risking 
their lives for liberty, for democracy, and for justice.
    The Castro brothers continue to aid and abet the Maduro 
regime just as they have aided and abetted the FARC guerillas 
in Colombia, and now they are pulling off this farce of peace 
negotiations in Cuba and have been carrying out systematic 
human rights abuses, and incarcerating opposition leaders, and 
that same coalition has had a stranglehold, lamentably so, on 
the OAS--the Organization for American States.
    They have bullied member states into acquiescence. On 
Friday, as you know, Mr. Chairman, the OAS, led by the ALBA 
group, silenced a Venezuelan legislator and one of the leading 
opposition leaders, Maria Corina Machado, prevented her from 
speaking the truth.
    Maria Corina sought to denounce the human rights abuses 
occurring in Venezuela but this broken institution, led by a 
cowardly Secretary General, chose to side with Maduro instead 
and yet just 2 weeks ago Secretary Kerry testified in front of 
our full committee that we need to work closely with the OAS in 
support of democracy in Venezuela, and the OAS was capitulating 
to Maduro and the Castros on Friday and throughout the years, 
this ordinary session silencing the truth of what is happening 
in Venezuela just a few blocks from the White House, and the 
administration continued to say that the OAS believes in what 
we believe in.
    And I believe, Mr. Chairman, the inmates are, clearly, 
running the asylum in the OAS. We are talking about a Maduro 
regime that is incarcerating opposition leaders, that is 
killing young people in the streets. Maria Corina may very 
well, because her immunity has been voided, she could be 
arrested.
    She could be imprisoned under false pretenses, tried for 
treason for daring to try to speak at the OAS, and on Cuba the 
State Department has been trying so hard to approve more visas 
for Castro lackeys and finding new ways to inject money in the 
coffers of the Castro brothers that it has not observed the sad 
reality that the Cuban people are suffering day in and day out.
    The OAS has failed to be a venue for the people of 
Venezuela, for the people of Cuba, the people of the hemisphere 
to express their concerns about the lack of democracy and the 
violations of human rights occurring in our hemisphere every 
day.
    Thank you very much, Mr. Chairman.
    Mr. Salmon. In the interests of time, if it is all right 
with you we will just dispense with introductions. Pursuant to 
Committee Rule 7, the members of the subcommittee will be 
permitted to submit written statements to be included in the 
official hearing record, and without objection the hearing 
record will remain open for 7 days to allow opening statements, 
questions and extraneous materials for the record subject to 
the length of limitation in the rules.
    I am going to start with you, Ambassador Reich.

STATEMENT OF THE HONORABLE OTTO J. REICH, PRESIDENT, OTTO REICH 
                        ASSOCIATES, LLC

    Ambassador Reich. Thank you, Mr. Chairman, members of the 
subcommittee, Chairman Emeritus Ros-Lehtinen. It is good to be 
here. I appreciate the opportunity to address this very 
important issue. I will not be following my written testimony 
but will summarize it for you.
    That we have neglected the hemisphere is not in question. 
All one has to do is travel in the region and we will be asked 
why the U.S. doesn't care about Latin America or the Caribbean.
    That disengagement carries real cost for the United States 
in political, economic, security and commercial terms, 
especially when it is accompanied by misguided policies that 
have confused our friends and emboldened our enemies.
    Believing that just by sitting down to talk with our 
antagonists they will stop their hostility is not diplomacy. It 
is self-delusion. As relations with Russia, North Korea, Syria 
and Iran prove, wishful thinking does not make an effective 
foreign policy.
    The same goes for the Americas. At its outset, the Obama 
administration unilaterally lifted travel and financial 
sanctions on Cuba and offered a diplomatic reset to Venezuela, 
Bolivia, Ecuador and other anti-American governments.
    For example, the administration inexplicably joined Castro, 
Chavez, Ortega and the OAS in trying to reinstate Honduras' 
radical and corrupt President, Manuel Zelaya, to the presidency 
even after Zelaya had been legally dismissed by the Supreme 
Court of Honduras and their Parliament for violating the 
constitution.
    What was the reaction from our adversaries? Castro, Chavez, 
Maduro, Correa, Morales, Ortega and even Argentina's Kirchner 
variously at times have intensified their ties with Russia, 
Belarus, Iran, Syria, Hezbollah, purchased Russian weapons, 
expelled American officials, put independent news organizations 
out of business and generally undermined liberties at home.
    Castro responded to the lifting of sanctions by increasing 
internal repression and jailing a U.S. citizen on trumped-up 
charges. Cuba was later caught helping North Korea to violate 
U.N. sanctions on weapons transfers.
    Further confusing our friends, the administration delayed 
for 3 years the ratification of free trade agreements with 
Colombia and Panama while slowing the implementation of the 
Merida Initiative, an anti-narcotics program with Mexico.
    Our disengagement is evident at the Organization of 
American States where this month alone a majority of the 
members voted to support Maduro's violent repression. One 
economic consequence of U.S. policy is an uneven playing field 
where U.S. firms cannot win some major contracts in Latin 
America because their competitors are bribing foreign decision 
makers.
    This is one result of our Government not implementing our 
own visa sanctions against corrupt officials coming to the 
U.S., opening bank accounts and owning property here.
    We must pay special attention to Cuba and Venezuela since 
these two countries have provided most of the muscle and money 
for the anti-American subversion of the past 15 years. Cuba is 
a totalitarian military dictatorship controlled by the 
Communist Party of Cuba.
    It is on the State Department's list of state sponsors of 
terrorism and is run by an organized crime family whose head, 
Fidel Castro, has made so much money he was listed on Forbes 
register of the world's richest people.
    The Castros have been involved in illicit businesses such 
as narcotics trafficking, kidnapping, bank robbery and money 
laundering. With the help of Hugo Chavez and later Nicolas 
Maduro, Castro has remade Venezuela in his image.
    This is not just my opinion. Listen to what Chavez's one-
time ideological mentor and main cabinet minister, Luis 
Miquilena, said recently:

        ``Venezuela today is a country that is practically 
        occupied by the henchmen of two international 
        criminals--Cuba's Castro brothers. They have introduced 
        in Venezuela a true army of occupation. The Cubans run 
        the maritime ports, airports, communications, the most 
        essential issues in Venezuela. We are in the hands of a 
        foreign country.''

    By Cuba, Venezuela has become an organized crime state. 
Politicians and military officers have been implicated in drug 
trafficking, support of terrorism and other illicit activities. 
Corruption runs rampant with huge fortunes illegally acquired 
by government officials and the so-called oligarchy.
    The U.S. Treasury Department has designated a dozen senior 
Venezuelan officials as ``significant foreign narcotics 
trafficker'' under the Drug Kingpin Act. They stand accused of 
``materially assisting the narcotics trafficking activities'' 
of the revolutionary armed forces of Colombia, the FARC, 
designated as a foreign terrorist organization by the State 
Department and European counterparts.
    Under the influence of the Cuba-Venezuela alliance, ALBA, 
which has been mentioned here along with other anti-American 
governments are repressing their populations, eliminating free 
enterprise, destroying press freedoms and other liberties and 
supporting terrorists and racketeers.
    Moreover, they are now bringing their illicit activities to 
the United States. To prevent what Mr. Miquilena correctly 
calls criminals, from consolidating their dictatorships or 
exporting violence, we must actively defend our interests and 
our security.
    This does not entail military force. One of our most 
effective tools and one that the U.S. is finally using against 
the Russian oligarchs as a result of the Crimea annexation are 
targeted visa and financial sanctions aimed at those government 
officials who repress their people and of the business 
accomplices who help keep the dictatorships in power and who 
profit from its corruption.
    Also, instead of constantly putting out fires in our 
neighborhood, we should put the arsonists out of business. The 
chief arsonist in this hemisphere for the past half century has 
been a Castro. We know where he lives and where he hides his 
money.
    Thank you.
    [The prepared statement of Ambassador Reich follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Berman.

   STATEMENT OF MR. ILAN I. BERMAN, VICE PRESIDENT, AMERICAN 
                     FOREIGN POLICY COUNCIL

    Mr. Berman. Thank you, Mr. Chairman, and thank you for the 
opportunity to appear here today. Let me begin simply by making 
two general and rather uncomfortable observations.
    The first is that Latin America does not rank on any given 
day very high on the list of the United States foreign policy 
priorities and that that is especially true today when you see 
international attention being rivetted to the Middle East, to 
Ukraine, to Crimea, and to the Indian Ocean.
    But by virtue of its geography, by virtue of its strategic 
position and its proximity to the U.S. homeland, Latin America 
is important. Indeed, it is vital to the United States on both 
economic and security grounds.
    This is, I think, a general observation that everybody 
understands but I don't think it can be stressed enough.
    The second observation, which we are beginning to learn at 
our great detriment, is the fact that nature really does abhor 
a vacuum and a retraction of interest, a retraction of presence 
on the part of the United States, will inevitably be filled by 
others, and that is precisely what is happening today.
    Even as the U.S. has disengaged systematically from the 
region, other actors have stepped in and done so in ways that 
are deeply detrimental to American security. Let me start by 
explaining what Russia is doing.
    Russia recently announced plans and made considerable news 
by doing so at the end of February to establish overseas 
military bases in eight countries including three Latin 
American ones--Venezuela, Cuba and Nicaragua.
    This represents a rather substantial expansion of Russian 
policy in the region. Over the last several years, Moscow has 
devoted, I would say, significant political equities to 
building diplomatic ties, to building economic ties and even a 
strategic foothold of a sort in the Americas.
    Notably, in keeping with its ideology, the regimes that the 
Kremlin has focused on in this outreach are those that share a 
broad expansionist and anti-American outlook.
    Moscow's attention is focused primarily, although not 
exclusively, on Nicaragua, on Venezuela and on Cuba, and 
through official visits, arms sales and military cooperation 
Russia has succeeded in creating what can be called 
legitimately a strategic beachhead in Latin America.
    And this is a policy that is being driven by a number of 
things, some of them practical and some of them less so. The 
Kremlin has recently focused on counternarcotics, and pursuant 
to a 2013 plan that was unveiled by the Kremlin, it is in the 
process of expanding counternarcotics cooperation with a number 
of Latin American states. Nicaragua being chief among them, 
this has already begun to net dividends including a bust of 
more than $1 million that was carried out jointly by Russia and 
Nicaragua last year.
    The Russians have also built a fairly significant arms 
trade relationship with the region, focusing in large part on 
Venezuela, which now makes up more than three quarters of the 
arms that Russia sells in the region to the tune of--in excess 
of $14 billion so far.
    But above all, and I think it is useful to point out here, 
Russia's activities are both strategic and opportunistic. Latin 
America is by any measure very far outside Moscow's core areas 
of interest, which are the post-Soviet spaces of Central Asia 
and the Caucuses, the Arctic, Eastern Europe, what have you.
    Latin America is very far afield. But precisely because it 
sees the United States withdrawing, it sees the United States, 
or at least perceives the United States, to be disinterested, 
Moscow is taking full advantage of what it now sees as an empty 
region.
    There is a Russian adage that says that a sacred space will 
not remain empty for long and I think that is very much 
applicable not only to Latin America, but also to Latin America 
in terms of how Russia is approaching it.
    And I would add parenthetically here that what you are 
seeing over the last several weeks has been a rather worrying 
evolution of how Russia thinks about Latin America because in 
the announcement that was made at the end of February by the 
Russian defense minister about the possibility of bases in 
Latin America, it was made clear that the negotiations that are 
now underway are to allow for aerial refuelling, for long-range 
reconnaissance aircraft.
    This is very much a throwback to the type of activities 
that the Russians, at that time the Soviets, used Latin America 
for.
    The second actor I think worth noting is Iran. We in the 
United States, and particularly in the Washington Beltway, have 
focused on Iran relatively recently. Only since the botched 
attempt to assassinate the Saudi Ambassador to the U.S. by 
Iran's Revolutionary Guards back in October 2011 has there 
really been sustained attention to this presence.
    But the presence actually extends far further back in 
history, at least a decade with regard to the modern 
contemporary outreach that you see the Iranians carrying out, 
and this outreach essentially focuses along three main lines.
    First, Iran sees Latin America as an arena for political 
and economic outreach because of the presence of sympathetic 
regimes in Venezuela, Bolivia, Ecuador, and elsewhere.
    Second, Iran seeks to acquire strategic resources in the 
Americas including, but definitely not limited to, the 
acquisition of uranium ore for its nuclear program.
    Finally, Iran has made Latin America an arena of asymmetric 
activity through its contacts with regional radical groups, and 
also by building infrastructure in the region such as the 
Regional Defense School for the Bolivarian Alliance of the 
Americas that Iran partially funded, which is located outside 
of Santa Cruz, Bolivia.
    Iran's presence in Latin America tends to be minimized by 
some because its level of activity is comparatively low, and 
because a majority of the economic promises that it has made to 
regional states so far haven't materialized.
    But it is useful to remember that Iran's contemporary 
outreach is new. It is less than a decade old and Iran is in a 
much, much better position strategically in Latin America than 
it was 10 years ago, and this is in part because the U.S. 
Government still does not have an implemented strategy to 
compete, contest, and/or dilute Iranian influence in the 
Americas despite the fact that it clearly constitutes an 
incipient threat to American interests.
    Finally, let me say a couple of words about China. Unlike 
Iran and Russia, China's presence in the Americas is mostly 
economic in nature but it is significant nonetheless because 
China's legitimate economic outreach, and it is very 
significant, has been mirrored by more questionable activities 
including cooperation with Argentina on nuclear issues, the 
launch of reconnaissance satellites for Venezuela and for 
Bolivia, and its much discussed plan to build an alternative to 
the Panama Canal in Nicaragua, which is by all accounts a very 
costly boondoggle but also one that will provide regional 
regimes with the ability to skirt U.S. oversight for containers 
if it is concluded.
    There is a commonality here between China on the one hand 
and Iran and Russia on the other. Beijing, like Moscow and 
Tehran, is seeking to take advantage of America's disengagement 
for the region for its own purposes, be they economic or 
strategic, which gets us to where we are.
    As you mentioned, Mr. Chairman, last fall Secretary of 
State Kerry announced that the era of the Monroe Doctrine is 
over, effectively, in the region. By doing that, he effectively 
served notice to regional regimes that they are allowed to 
curry favor with external actors and served notice to external 
actors that America will no longer contest and compete with 
those external actors when they reach into the region.
    Moscow and Tehran and Beijing were doubtless listening when 
the Secretary spoke and what they likely heard was an 
invitation to further deepen the involvement that they are 
already pursuing in the region.
    If history is any judge, if the last decade is any judge, 
that deepened involvement is going to come in ways that are 
going to have profound security and economic implications for 
the United States.
    Thank you.
    [The prepared statement of Mr. Berman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Thank you, Mr. Berman.
    Mr. Claver-Carone.

 STATEMENT OF MR. MAURICIO CLAVER-CARONE, EXECUTIVE DIRECTOR, 
                    CUBA DEMOCRACY ADVOCATES

    Mr. Claver-Carone. Thank you, Mr. Chairman, Ranking Member, 
members of the subcommittee.
    It is really a privilege to be here today to discuss this 
important and consequential issue regarding Latin America which 
directly affects the national interest of the United States.
    My testimony can be summarized as follows: The Cuban 
dictatorship is working systematically against democratic 
institutions in Latin America. Autocracies like Cuba's work 
systematically using subterfuge, coercion, censorship, and 
state-sponsored violence including lethal force and terrorism.
    Thus, the regions democracies, led by the United States, 
must also work systematically to protect and promote its 
democratic institutions, and democracies work systematically by 
holding human rights violators accountable, giving voice, legal 
assistance and protection to the victims, economic sanctions 
and diplomatic pressure and by promoting successful evidence-
based aid programs to break the cycle of poverty and 
instability, and obviously that is an issue for another 
hearing.
    Allow me to elaborate a bit on this. In the 1980s, it was 
commonly stated that the road to freedom in Havana runs through 
Managua, alluding to a cause-effect from an end to the Cuban-
backed Sandinista dictatorship of Daniel Ortega in Nicaragua. 
In the last decade, this statement has morphed into the road to 
freedom in Havana runs through Caracas, referring to the Cuban-
backed Bolivarian Governments of the late Hugo Chavez and 
Nicolas Maduro in Venezuela.
    Undoubtedly, both roads represent noble and important goals 
albeit temporary short-term solutions, the reason being that 
the Sandinista Government of the 1980s and the Bolivarian 
Government of today are symptoms, not remedies, of a greater 
illness.
    The fact remains that no nation in Latin America will enjoy 
the long-term benefits of freedom, democracy and security so 
long as the dictatorship of the Castro brothers remains in 
power in Havana.
    As such, a more accurate statement would be the road to 
long-term freedom, democracy and security in Latin America runs 
through Havana. The Castro regime remains as resolute today to 
subvert democratic institutions, to direct and sponsor violent 
agitators and support autocrats throughout the region and the 
world as it did in the '60s, '70s and '80s.
    Granted, its tactics and scope have been diminished, mostly 
due to the economic realities stemming from the end of massive 
Soviet subsidies through 1991, but its antagonistic aims are 
unwavering.
    No wishful thinking or accommodation policy, which I 
believe are interchangeable, will make this go away. Moreover, 
to underestimate the skill, diligence and effectiveness of 
Cuba's intelligence and security forces is a grave mistake, the 
proportions of which we are witnessing today in Venezuela.
    After all, the erosion of Venezuela's democratic 
institutions and its government's repressive practices are the 
result of a protracted systematic effort spanning over a decade 
of penetration and control by the Cuban dictatorship, and 
Ambassador Reich mentioned what Luis Miquilena, a former mentor 
to Hugo Chavez, said.
    Thus, it should be a priority for all democracies in Latin 
America, led by the United States, to support the democratic 
forces in Cuba working to end the dictatorship of the Castro 
brothers. That is the remedy.
    Unfortunately, that has not been the case and last month 
Latin America's democratically-elected leaders paraded through 
Havana for a summit of the CELAC, which is an anti-U.S. 
concoction of Hugo Chavez.
    Currently, the organization's rotating presidency is, 
ironically, held by General Raul Castro. Similarly, these 
elected leaders were not interested nor concerned that Cuba's 
regime had threatened, beaten and arrested hundreds of the 
island's democracy advocates who had tried to plan and hold a 
parallel summit to discuss the lack of freedom and human rights 
in Cuba.
    This trend is reversible, but the leadership of the United 
States is vital. Undoubtedly, the democracies of Latin America 
need to step up to their own responsibilities, but in the cost 
benefit analysis that all political leaders make, they need to 
be left with no doubt that the benefits of standing up for 
freedom and democracy in Cuba outweigh the cost.
    Whether we like it or not, only the United States can tip 
that balance, hence, the title of today's hearing. To be clear, 
United States is not the cause of Latin America's problems.
    To the contrary, it represents the solution. U.S. 
leadership in the region should be public, unquestionable and 
unwavering, particularly in regards to shared values of 
freedom, democracy and security.
    Our democratic allies in the region should know and 
anticipate the benefits derived from embracing and promoting 
democratic practices, and likewise, autocrats should know and 
anticipate the consequences of undemocratic practices and 
illegal acts.
    Unfortunately, currently neither is the case. We are 
witnessing the first with Venezuela. The silence of Latin 
America's leaders amid the violent suppression of dissent by 
the government of Nicolas Maduro is scandalous. The reasons for 
their silence amid the arrest, torture and murder of Venezuelan 
students is similar to the rationale for embracing the Castro 
dictatorship by the CELAC summit in Havana--how instead of 
leading and encouraging the region's democrats and holding 
Maduro's government accountable, the United States is 
unwittingly, and I don't think it is purposefully, contributing 
to their silence.
    For example, this past Friday the Panamanian Government 
ceded its seat at the Organization of American States to 
Venezuelan legislator Maria Corina Machado, a leading 
opposition figure, to renounce the human rights abuses of the 
Maduro government.
    I remind you in 1988-89 Venezuela's democratic government 
had supported Panama's democratic opposition and did the same 
for them, thus Panama's democrats remain grateful.
    The U.S. should have applauded this gesture by Panama and 
it did so after the fact but, unfortunately, the United States 
initially sought to dissuade the Panamanian Government from 
accrediting Maria Corina Machado to speak at the OAS. That is a 
lamentable fact and I would urge the subcommittee to ask the 
State Department for its rationale.
    In the interest of time, the U.S. should also be making the 
benefits of supporting Venezuela's democratic institutions 
absolutely clear and not muddying the message.
    In the same vein, the consequences for undemocratic 
practices and illegal acts should be absolutely clear and there 
is no better opportunity to do so than regarding the Castro 
regime's recent smuggling of weapons to North Korea in blatant 
violation of international law.
    As you know, in July 2013 the North Korean flag vessel, 
Chong Chon Gang, was intercepted with weaponry hidden under 
200,000 bags of sugar. This month, the U.N.'s panel of experts 
released its official report on North Korea's illegal 
trafficking of weapons in conjunction with Castro's regime.
    The panel concluded that both the shipment in itself and 
the transaction between Cuba and North Korea were international 
sanctions violations. Let me emphasize this shipment 
constituted the largest amount of arms and related material 
interdicted to or from North Korea since the adoption of the 
U.N. Security Council's resolution, and as for Cuba, it is the 
first time a nation in the Western Hemisphere was found in 
violation of U.N. sanctions.
    The report noted similar patterns by other North Korean 
ships. Thus, similar ships have simply gotten away, and such 
egregious practices should not be inconsequential. Thus far, it 
would send a demoralizing message to Panama, which put up its 
resources and reputation, and but moreover, it would show that 
inaction breeds impunity.
    And as my time is over, I would just finally state a third 
factor, it is essential that the United States lead, and once 
again it all goes back to leadership, of the region's defense, 
promotion and application of the Inter-American Democratic 
Charter.
    Otherwise, it will become irrelevant and no other nation in 
the hemisphere will do that.
    [The prepared statement of Mr. Claver-Carone follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Shifter.

  STATEMENT OF MR. MICHAEL SHIFTER, PRESIDENT, INTER-AMERICAN 
                            DIALOGUE

    Mr. Shifter. Thank you very much, Mr. Chairman, Ranking 
Member Sires, other members of the subcommittee. I appreciate 
this opportunity to appear before you today to talk about U.S. 
policy toward Latin America.
    The U.S. relationship with Latin America has changed in 
fundamental ways in recent years and has become more distant, 
more so in South America than in Mexico and Central America.
    The reasons for this are deep and many and cannot be traced 
to any single administration or policy. The main explanation 
is, ironically, Latin America's economic, social, even 
political progress over the last decade.
    The region is more politically confident and independent on 
the world stage. It continues to expand its global ties. The 
United States too has changed over the same period. The 2008 
financial crisis hit hard.
    We have endured two draining wars. Our highest-level 
officials have been distracted elsewhere. The presence of non-
hemispheric actors in Latin America has grown. In the era of 
globalization, this is natural.
    China is involved through trade, financing and, to a lesser 
extent, investment. Of greater concern are the roles of Russia 
and Iran. Over the past dozen years, Russia has sold arms to 
the region at an estimated $14.5 billion--it has been said over 
three-quarters of that to Venezuela.
    The recent statement by Russia's defense minister about 
intentions to increase their presence in Venezuela, Nicaragua 
and Cuba was probably mostly posturing for domestic political 
consumption, but especially given what is happening today in 
Ukraine they need to be followed very closely and very 
carefully.
    Iran's activities too should be carefully monitored. There 
is ample information about money laundering operations. But so 
far, there has been no credible proof of threats posed by Iran-
linked groups.
    The Obama administration, in my judgment, has been vigilant 
about these questions and needs to marshal resources to follow 
what is happening as closely as possible in the region. At the 
same time, there is little indication today that such actors 
pose a serious danger or threat to U.S. interests.
    There is great concern about Venezuela as well there should 
be. Even minimal human rights and democratic safeguards have 
eroded. The government's repression of protestors, persecution 
of political opponents and restrictions on press freedom are 
even worse than during the Chavez era.
    In such a polarized country, anything can happen. Venezuela 
shows how difficult it is for the United States to exercise 
leadership in the current environment. During the Chavez years, 
Venezuela gained allies through lavish spending. The intent was 
to curtail the influence of the United States in this 
hemisphere.
    Fortunately, ALBA, the anti-U.S. group that Chavez created 
and led, has become weaker even before Chavez's death in March 
of last year. The deep economic and continuing crisis in 
Venezuela has hurt ALBA's capacity to act throughout the 
region.
    Unfortunately, however, at a regional level where there is 
so much polarization and fragmentation, there has not been much 
will to act regarding Venezuela. The OAS has all the 
instruments at its disposal to apply pressure but unfortunately 
the will isn't there for both economic and for political 
reasons.
    The Venezuelan crisis shows how critical it is for the 
United States to become more engaged than it has been in 
regional affairs. It can do this in several ways.
    The United States cannot, unfortunately, act alone. It 
needs to act in concert with others. I do believe that the 
United States should be more involved in the OAS, not just 
saying what the OAS needs to do but actually coming up with 
ideas, proposals and reforms and mobilizing support and allies 
around those proposals.
    The U.S. efforts on strengthening human rights have been 
commendable but there has been no energy and no hard work, as 
far as I can tell, on the political side. The U.S. has been 
withdrawn and disengaged. The effort has not been made.
    The second way is to deepen our relationship with Brazil. 
This is very difficult in the short term--we all realize that. 
But U.S. policy will be limited in this hemisphere, in this 
region, unless there is sustained focus on relations with the 
region's preeminent economic power.
    Third, strengthen relations with Mexico, Colombia, Peru and 
Chile. The administration is doing this, to its credit, but 
especially with Mexico it is hard to make progress without 
immigration reform and progress on other items on the domestic 
agenda in the United States.
    The failure to do this hurts our efforts to reengage with 
Mexico and also with other countries in Latin America. And 
finally, we cannot reduce our engagement and cooperation on 
Latin American security issues.
    These need to be sustained not only in Central America and 
Mexico but even in Colombia, which has been a success story for 
U.S. policy in this hemisphere that we should not forget. But 
we need to continue to invest with a strategic ally that 
reflects our commitment to the region.
    Thank you very much.
    [The prepared statement of Mr. Shifter follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Thank you, Mr. Shifter.
    I am going to yield myself 5 minutes to ask questions and 
then I will yield time to the ranking member.
    Ambassador Reich, I would like to start with you. As 
Assistant Secretary for WHA in the early 2000s, what was your 
approach to developing strategy and policy to deal with 
countries in Latin America that were antagonistic to our 
interests and to democratic principles?
    And if you were back in the chair today or at the NSC, what 
would be your top priorities in support of our interests in the 
region? And then finally, how would you instruct your diplomats 
on the ground to deal with the threats of expulsion we have 
seen in places like Ecuador and Bolivia?
    Ambassador Reich. Yes, sir. I had a slightly different 
approach than the current administration. In fact, I had the 
advantage that I think the entire administration did. We did 
not preemptively give the other side anything they wanted.
    In fact, quite the opposite. I will give you an example. 
The Cuban Government refused a visa for the person we had 
selected as the head of our interests section in Havana. They 
didn't give a reason. They just didn't like him and they 
weren't going to allow him in.
    Instead of trying to reason with them, since I know, 
unfortunately, from personal experience a little bit about that 
government, I simply asked where the head of their interests 
section was. At the time, I was told that he was in Cuba on 
vacation and I said just simply tell them that he is not coming 
back. Forty-eight hours later we had the visa for our man in 
Havana.
    Diplomacy is not just sitting down and talking to people. 
You can talk to your friends. We did talk to our friends. We 
had very good relations with our people.
    Mr. Shifter correctly says--with our friends, I should 
say--that Colombia is an example of U.S. success, and it is 
bipartisan, by the way. I would like to say that it wasn't just 
the Republican administration behind Colombia that enabled 
Colombia to survive a Communist-supported, including Cuban-
supported, insurgency over many years was made possible by both 
Democratic and the Republican administrations in the late '90s 
and in the 2000s.
    We should deal with countries in the way that they deal 
with us. I mean, we have seen recently in Ukraine the error of 
trusting people who have other agendas than we think they have 
or even what they say.
    The same thing applies in this hemisphere and there are 
many other examples that I can give you. What I would do today 
is I would support, for example, the resolutions in the House 
and Senate that would revoke the visas and freeze the accounts 
of those people responsible for the violence in Venezuela, and 
not only the government officials, but what the NSC spokesman 
said, the oligarchs in the case of Ukraine and Russia.
    There are a lot of private-sector people in Venezuela and 
other countries in the region that have become billionaires, 
with a B, as a result of corruption from these left-wing anti-
American populist governments that are in office.
    They are investing their money in the United States. There 
are some of those people who have huge assets in the United 
States. They come and they spend the weekends here. I don't 
understand why we allow that when their actions are undermining 
our national interests.
    Mr. Salmon. One other question. I get really, really 
frustrated with the toothlessness of the OAS and I have heard 
testimony from the entire panel, and anybody that wants to 
address it, I would be interested in your thoughts as far as 
how do we motivate them to do the right thing.
    I know we are paying about 40 percent of the funding for 
the OAS and we get little return, if any, and I don't know how 
we continue to justify this to the taxpayers. It looks just 
like we are throwing money down a rathole. They don't 
accomplish anything for us, and I would be interested in your 
thoughts.
    Ambassador Reich. Again, my experience from having been in 
the U.S. Government for 15 years, including at international 
fora, although I prefer the bilateral rather than the 
multilateral relationship, is that we don't--we tend to treat 
governments who do things to us like we just had done--and I 
say we in this case, those governments that support democracy 
in the region--and I should say that in the case of not 
allowing Maria Corina Machado to speak at the OAS, if I am not 
mistaken--now, correct me if I am wrong--the United States, 
Canada and Chile and Panama--sorry, there were 11 countries--11 
countries that supported Ms. Machado being able to speak, and 
there was precedent for this, I think we should support those 
countries.
    The other 14, the countries of the English-speaking 
Caribbean with the exception of Barbados which abstained, which 
I personally don't think abstention is a very honorable course 
in this case but much more honorable than voting with the 
Government of Venezuela to shut up an elected representative of 
the people of Venezuela who represented the peaceful dissident 
movement, and the other countries--Brazil, Argentina and the 
others that sided with Venezuela--I think that we should not 
just deal with them on the multilateral forum.
    Our Ambassador to the OAS should not be the only one that 
would express discontent with what they did. I think that there 
should be a cost to relations with the United States overall--
economic relations. We are the most powerful economic nation in 
the world. There is a reason for that.
    Our economy is based on freedom--individual freedom, free 
markets, individual initiative. That freedom is being destroyed 
by Venezuela, has been destroyed by Cuba, is being destroyed in 
other countries in the region--Nicaragua, Bolivia, Ecuador, et 
cetera.
    I think we need to side with the countries that support 
freedom. We need to actively oppose the countries that destroy 
freedom, and whether they vote one way or another in a forum we 
should pay attention to that.
    Mr. Salmon. Our fault. Mr. Duncan.
    Mr. Duncan. Mr. Chairman, is an amen out of order there?
    Mr. Salmon. I recognize Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, the State Department's budget was cut. Now, in 
turn, we have a cut in the Western Hemisphere about 21 percent. 
How detrimental is that in dealing with the Western Hemisphere 
as we reduce money to be able to work with some of these 
countries? Anybody? Mr. Shifter.
    Mr. Shifter. Thank you. I think it is, clearly, not helpful 
and it does undermine our ability and our capacity to act 
effectively.
    There is no--and it is hard to put a number on it exactly 
to--but, certainly, and of course more than anything I think 
the amount of money it sends a message. Latin Americans see 
this.
    They see that we are cutting, we are trimming, we are 
pulling back and I think that is not a reassuring message for 
our friends who want to see--who think that there is a lot at 
stake for the United States, the relationship deepen.
    So I think it is a negative message and signal that is 
being sent. I understand why we need to cut budgets up here but 
that, I think, is a consequence and a reality that we need to 
deal with.
    Mr. Sires. Mr. Berman, what do you think some of the 
consequences will be?
    Mr. Berman. It is a good question, sir, and I would like 
to, if I may, broaden the question beyond simply the State 
Department because I would note, and I noted in my written 
statement, that there has been what amounts to a substantial 
budgetary draw down on, for example, the operating budget and, 
as a result, the horizons of combatant commands like Southern 
Command.
    Southern Command, the posture statements over the last 
several years, reflect a clear trend in which the acting 
commander at the time has said we are no longer in the 
business--and, obviously, I am paraphrasing--we are no longer 
in the business of competing and contesting the activities of 
actors such as Iran, for example, and South America.
    We have essentially retracted northward and now sit in 
Central America and our concerns are mostly with arms trade and 
with narcotics trafficking. This is a preemptive, I may say, 
ceding of the battlefield if the understanding is that what 
Iran is doing, what Russia is doing--these are countries of 
particular concern, certainly, to this hearing--what they are 
doing in the region can be contested, can be diluted in its 
effectiveness if the United States is down there both in an 
economic sense but also in a military sense--in a concrete 
military sense.
    And I think it is worth pointing out that this is a trend 
line that consumes not only the State Department but it is also 
one that is affecting the Defense Department as well with long-
term effects for both our ability to see what is happening in 
the region but also to counteract it if we choose to do so.
    Ambassador Reich. Mr. Sires, it is an important question. I 
hate to keep going back to my experience but I will take the 
opportunity since the question was asked by the chairman about 
what did I do. I happened to be the first Assistant Secretary 
for the Western Hemisphere after 9/11 and we had a serious 
reduction in our resources as a result of the fact that we had 
to move a lot of--we, the United States Government, moved 
people and money to where there was a war, logically, and I 
defended that publicly.
    Resources are extremely important to the State Department, 
to our foreign policy establishment, but they are not 
everything. What I think is very important is to have the 
support of other parts of the government, to have the support 
of the President, the National Security Council and again, 
understand the fact that we represent in those positions not 
just a department of the United States Government but we 
represent the entire United States and we should think of our 
resources in a more comprehensive way than just the limited 
budget that we have.
    Mr. Sires. Can somebody talk a little bit about what is the 
major obstacle preventing the OAS from being an effective 
organization?
    Mr. Shifter. I will try. First of all, it is important to 
have some perspective. I think the OAS has always had more than 
its share of problems.
    Mr. Sires. They don't do anything.
    Mr. Shifter. What?
    Mr. Sires. They don't seem to----
    Mr. Shifter. But if you go back those are the criticisms, 
you know, 15 or 20 years ago about being irrelevant, not 
credible, marginal. Some of those same terms were used a long 
time ago.
    I think the main obstacle, to answer your question 
directly, is that politically the hemisphere has changed a lot 
in the last 10 years. It is much more fragmented. It is much 
more polarized.
    The OAS operates by consensus and it is very hard, and 
there was a consensus in the early 1990s at the end of the Cold 
War. The governments went from military governments to civilian 
governments. There was a move there when people came together 
supporting democracy and markets, and then things started to 
unravel. Chavez came in 1998.
    He was a polarizing figure, and it is very hard for an 
organization that deals with that kind of politics unless you 
really get in there and fight and make deals, and I think the 
United States hasn't done as good a job as it should.
    So, now, you could try to say the Secretary General could 
do a better job and you could point to other factors, and I am 
not denying that. But I think the main obstacle is just a very 
complicated landscape.
    Just to finish, I spoke to the previous Secretary General 
in Colombia who was the President of Colombia, Cesar Gaviria, 
and asked him what he thought about the OAS. He said, you know, 
I was glad that I was in the OAS in the 1990s and not now 
because I think I would have a much harder time. He realizes 
the politics are much, much more difficult.
    Mr. Sires. So is it obsolete?
    Mr. Shifter. I don't think it is obsolete. I think the 
United States has a role to play and I think the other 
countries have to step up.
    But I think there has been a lack of political commitment 
and political engagement in doing the hard work of really 
making an effective organization. We have to understand we went 
through a big period with the Chavez thing.
    Now I think we are entering a somewhat, even though we have 
this crisis in Venezuela we are entering, a different period. 
There aren't going to be these sort of super populist leaders. 
Maduro doesn't have the money that Chavez had. He can't do what 
Chavez did during that period.
    Things have become more complicated. I think there's 
another opportunity. I think it is a mistake to give up on it. 
The United States is not involved in any other multilateral 
organization in this hemisphere except the Summit of the 
Americas. As it has been mentioned, the United States is not a 
member of CELAC and MERCOSUR. I think we need to be part of 
these organizations and do the hard work to make them more 
effective.
    Mr. Sires. Can somebody talk to me a little bit about why 
it seems that Cuba has its tentacles everywhere and yet people 
are sceptical of the meaning behind these efforts that Cuba is 
making in all these countries? Can somebody talk a little bit 
about that?
    Mr. Claver-Carone. I can take that. In particular, because 
I think we have an opportunity right now and we are concerned 
about thinking forward. We are concerned about Russia.
    We are concerned about Iran and we talk about all these 
things but there are current events and I think we can't 
underestimate enough what we are currently seeing in regards 
to, because I think it is a perfect example, the concern of 
inaction breeding impunity, and it is the shipment of weapons 
to North Korea.
    This isn't just a small shipment of weapons to North Korea. 
As I mentioned, it is the largest amount of arms that has ever 
been interdicted to North Korea since the Security Council's 
resolution, the first time a nation in the Western Hemisphere 
has violated international norms.
    This would have been the biggest shipment of MiGs to North 
Korea since 1999, a sale that Kazakhstan did, and it would 
have--these were mint condition RPGs that would have affected 
our forces, U.S. forces in Korea--put our guys in danger in 
Korea. This was the shipment that got caught, but even the U.N. 
panel of experts shows that things have gotten away.
    If we, the United States, let this pass and essentially not 
do anything, and I understand that the current rationale of the 
State Department is that this is a multilateral issue since 
these are international sanctions, but if we are going to allow 
essentially the Security Council to have Russia decide what we 
are going to do in this regards. Obviously, China protects 
North Korea in that regards, nothing is going to happen.
    And therefore, all of our concerns that we think about and 
anticipate in regards to Venezuela and Ecuador with Iran and 
with Syria, et cetera, Russia, et cetera, then the message 
right there that is sent, if United States doesn't say that 
this is unacceptable, something so egregious, the message that 
is going to be sent is at the end of the day we are always 
going to be protected from doing so and we are going to green 
light those activities in regards to our future concerns.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Salmon. Thank you. The Chair recognizes Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Thanks for holding 
this hearing.
    Ambassador Reich, your comments were spot on and I 
appreciated the last exchange. But how do we export freedom? 
And that is rhetorical, I know, but I think about Colombia, and 
when the gentleman from New Jersey and I were there back in the 
spring of 2012 at the Summit of the Americas we met with some 
members of the Colombian congress and I remember them saying, 
and I can't remember verbatim, but we talked about the economic 
prosperity that Colombia was experiencing.
    And one thing they said were low taxes, limited government, 
free markets. And I said, wait a minute, that is the foundation 
of what this country was founded on, and they were getting it. 
They were actually saying just enough government to support the 
free market.
    I thought that was amazing to hear that from a leader in 
another country telling me the principles that actually made 
America great. And so I would ask just take a minute. What 
should we or could we do to export the things you talked about 
earlier? What can we do?
    Ambassador Reich. Well, for example, I would say, first of 
all. But even that is not enough. Going back a few years I 
think we made a mistake, I am going to make a personal judgment 
call, on doing away with the U.S. Information Agency.
    There was a separate U.S. Information Agency. Yes, it 
probably wasn't as effective as it could have been. But rather 
than making it more effective, what was done was it was 
incorporated into the State Department with positions called 
public diplomacy positions.
    As a result we don't have an open and overt information 
agency in the U.S. Government that talks about all the things 
that the United States does for the rest of the world.
    One of the things that I think we should do besides setting 
an example for the fact that this economy works and free 
economies work and unfree economies do not work is we need to 
repeat that. It becomes very obvious.
    People should know. They should look at Cuba. They should 
look at Venezuela. Venezuela has the largest oil reserves in 
the world. Venezuela should be one of the most prosperous 
countries in the world.
    Today, the Venezuelan people are standing in line and 
housewives are literally fighting, fighting in supermarkets 
over a loaf of bread. Why? Because they are run by people who 
still believe in Marxism. After nearly 100 years of failures of 
systems based on Marxism you still have these people in Cuba, 
Venezuela, Ecuador, Bolivia, Nicaragua and other places trying 
to make it work.
    It is not going to work. But we need to reinforce that. I 
think we have a responsibility as the leader of the free world 
to promote freedom much more actively.
    Mr. Duncan. Well, it works for those that are in power 
and----
    Ambassador Reich. Oh, absolutely.
    Mr. Duncan [continuing]. They just continue pushing those 
policies because it supports their positions and their economic 
benefit.
    Mr. Berman, last summer the State Department delivered a 
report to the U.S. Congress that essentially said that Iran's 
influence in Latin America is waning and it was a result of a 
piece of legislation that I passed.
    However, in your testimony you suggest that in fact that is 
not the case, citing the warm and personal relationship that 
was formed between former President Chavez and Ahmadinejad.
    Now that they are both exited from the stage, do you expect 
this close relationship to continue under Maduro and Rohani and 
if not what do you expect will be the net effect on Iran's 
long-term plans in Latin America?
    I would just love to kind of start a dialogue about Iran. 
Is it still a threat here and can you speak of that?
    Mr. Berman. I can, sir, and I would say speaking for myself 
I think it is absolutely still a threat and the dialogue over 
Iran with regard to its presence in the Americas is quite 
misleading because people tend to look at Iran's deliverables 
with regard to the region rather than Iranian intentions, and 
Iran has signed over 500 trade and cooperation pacts with the 
various countries of the region since it entrenched itself back 
in 2005 or began to entrench itself in 2005.
    Most of those trade agreements and cooperation agreements 
save for the ones that it signed with Venezuela have been 
undelivered and they really remain unrealized, and as a result, 
people have taken to thinking that what Iran is doing is 
essentially simply a dalliance in the Americas.
    And I would make the point that if you look at long-term 
Iranian strategy to use various regions including Latin America 
as a way to circumvent sanctions, which was very important to 
them up until last fall when they started the Geneva process, 
but I would argue it is still important to them now.
    And looking at Latin America as an area where they can 
marshal support for a revisionist radical world view and garner 
the support of regional regimes and lessen their isolation that 
way, I think what you are seeing is an Iranian presence that is 
qualitatively and quantitatively far more significant than it 
was a decade ago and it is one that will continue as you look 
forward into the future because there are a number of strategic 
opportunities that Iran is likely to seize upon in coming 
years.
    Mr. Duncan. I would say two decades ago, if you go back to 
the AMIA bombings in Buenos Aires. And so we have established 
the fact that you and I agree that Iran is a threat in this 
hemisphere so let me ask you this. What should the U.S. 
strategy be?
    Mr. Berman. Well, sir, I think a good start would be to 
actually implement legislation that was passed and in this 
particular case I refer to the act that you sponsored, with 
regard to recognizing that there is a problem.
    And as you know, where the U.S. discourse is with regard to 
Iran and Latin America is essentially frozen as of last summer. 
Last summer, I had the privilege of testifying before the House 
Homeland Security Committee on this precise issue, on where 
Iran's footprint in the region is, and I am sorry to say that 
we had just come off of a disclosure by the State Department of 
what was objectively, I think, a very feeble assessment of the 
intelligence surrounding what Iran has been doing in the 
region, and nothing has been done since because there was the 
August recess and then there was sequester and what have you.
    And the aggregate result is that U.S. policy toward Latin 
America, with regard to Iran, is precisely where it was last 
summer. There isn't a strategy to go down there, to compete and 
contest and dilute in economic terms, in political terms, to 
rally sympathetic regional governments in sort of 
constellations like, for example, the Pacific Alliance that 
have the ability to dilute Iranian influence.
    Latin America is still an open playing field for Iran and I 
think you are going to see in coming years that Iran is going 
to take full advantage of that playing field.
    Mr. Duncan. All right. Well, my time is up. I appreciate 
that. I would love to delve into at future hearings or just in 
conversations, Mr. Chairman, about whether we need to mimic 
that piece of legislation now with regard to Russia and their 
involvement in this hemisphere. And with that, I will yield 
back.
    Mr. Salmon. Thank you.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman, I don't know if I have 
any questions but maybe I will get through my statement because 
I want to make sure the record is clear where I stand.
    Number one, I think the OAS is a very important 
organization. I think that we need to engage with the OAS now 
more than ever. Who is the OAS? It is one of our allies. 
Everyone is sitting there.
    So if somebody dares say something that we don't like we 
are going to disassociate ourself with them and say that they 
don't need to exist anymore? That is part of the problem. Some 
of us would like to, Ambassador Reich, the same policy that we 
had 30 years ago and utilized them in South America you want to 
still use the same thing.
    One man said if you believe the same way you believed 30 
years ago today you have wasted 30 years. Things have changed. 
This world is a much smaller place today than it was 30 years 
ago.
    There is more democracy--you want to talk about democracy? 
There is more democracy in South America today than there was 
30 years ago. There are more countries that are electing 
Presidents and governments through a democratized process today 
than there were 30 and 40 years ago.
    When we would prop up dictators, we propped them up for the 
benefit of our country, not thinking about others. We forget 
that history. Yes, I have got problems when people are not able 
to come up and stand and protest, as I said, at a recent 
hearing that took place on Venezuela.
    I got problems because I know the history of me and my 
country. Just as I had problems when our Government struck down 
and beat individuals like my colleague, John Lewis, who sits in 
this Congress.
    But if I thought the same way I thought back then 40 and 50 
years ago I would have a big problem sitting here as a Member 
of Congress today. I had to recognize the changes and the 
differences, and so we need to do that also with Latin America. 
I was there.
    I saw it earlier in 1998 when I got elected. I recognized 
what I saw when Hugo Chavez got elected. There was a bipartisan 
delegation of individuals who were down there talking, trying 
to work it out with policies, Ambassador Reich, that you could 
have said we don't like them.
    And there was a coup d'etat clear and simple in Venezuela, 
and half an hour after it we recognized the coup government, 
not the government that was elected democratically.
    Yet we say we love democracy. We have got to understand 
from which we come in this and try to figure out how we can 
work together to make a difference--this administration and the 
State Department.
    I have yet to hear people talking about what are we doing 
and how we can make a difference. I heard Mr. Shifter say 
something that I thought was significant, that we are now 
living in a global economy and that our economies are 
connected.
    No one talked about how we got Chile and Mexico and Peru 
all partnered with us in TPP. Nobody talks about how the fact 
or whether or not some of our allies--I heard someone shout 
down Brazil. Well, Brazil is a country that is developing and 
is great, has its own population, have a lot to give with 
reference to energy.
    We have got to recognize that and not just say we got to--
because they don't agree with us 100 percent we are going to 
put them away. We condemned, and I have problems with some of 
the decisions that President Morales of Bolivia has and the 
position that he has taken there.
    But we never recognized that for the first time the people 
of Bolivia decided they would elect someone who is indigenous. 
And the people that he represents, the people of Bolivia and 
what their thought pattern was and is and to at least give them 
some semblance of respect that they democratically elected a 
President who looked like many people who had historically 
before that never been able to get involved and have a voice in 
their government. Those things have to be recognized.
    We have to deal with those realities if in fact we are 
going to have a harmonious relationship here on this 
hemisphere. To listen to what I have been listening to thus 
far, we blame everything, the whole world and everything that 
is all wrong because of the influence that Cuba has on 
everything.
    Yet we don't change anything. Nothing has changed, so that 
can't mean that it is a success. So we do the same thing over 
and over and over and over again and then complain and complain 
and complain. We should learn something so that we can get a 
different result instead of having it going over and over 
again.
    No one talks about what we have had--well, somebody 
mentioned our good relationship with Colombia. Go talk to the 
President of Colombia and ask him what he thinks, since he is 
our good ally.
    Ask him what he thinks we should do and how we should move. 
We can't do things bilaterally or unilaterally, rather. If we 
are going to resolve certain things we got to do things 
multilateral and that is why the OAS is tremendously important.
    I know I am out of time and I wish I had a question. I had 
some but I want to make sure that I am clear on the record, and 
I will end as I began.
    If we want to be serious about working with our neighbors 
to the south, we have got to do so in a different way, not as 
my way or the highway, not that I don't consider what you do or 
anything of that nature.
    We have got to do it in a multilateral way in a way that is 
respectful. I end it with this. I remember President Clinton. 
He was leaving the presidency. I asked him what is the 
difference between what he thought was important when he got 
elected President and when he left, and he said that, I don't 
care how small the country--we could use our military might but 
that won't change them.
    It is giving some respect and working together. Yes, we 
have got the biggest military in the world and we know how to 
use it when we need to.
    But we have got to talk to folks and we got to figure out 
how we do things in a multilateral way and not just do it 
unilaterally.
    I yield back.
    Mr. Salmon. I thank the gentleman.
    I recognize the gentlewoman from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and I 
apologize for my back and forth. We are doing some hallway 
appointments--democracy in action.
    And coming from an enslaved Communist regime where my 
family had to flee, and 50 some years later we still don't have 
democracy, and the OAS remains as silent as it always has when 
it comes to supporting democracy. I love getting interrupted by 
our democratic process so I never mind scooting in and out of 
committee rooms.
    Now, some would like to defend the OAS. I see it as a 
failed institution and I hurt that our money is going to this 
institution--40 percent of its budget--and what did the OAS do 
just on Friday?
    Maria Corina Machado, who has now been stripped of her 
legislative immunity, is a legislator in the National Congress. 
She was invited by Panama to speak in favor of human rights and 
democracy. Can you imagine?
    What nerve to speak in favor of democratic principles in 
the OAS, and there is the Secretary General, a buffoon who just 
continues to silence the opposition, refuses to hear that there 
are any problems--see no evil, hear no evil--and so they do 
nothing, and this wasteful institution is gobbling up our 
money.
    What an insult. The Obama administration would like us to 
believe that our region is stable and prosperous but it fails 
to acknowledge the ongoing threats to our national security, 
our stability and the challenges that we face in promoting 
democracy, freedom, and the rule of law.
    And, you know, a democracy is more than holding an 
election, even a fraudulent election at that, because we had an 
election, free and fair. Can you say that about the other 
countries that have had elections? Really, Maduro?
    I presented to Secretary Kerry evidence of the electoral 
fraud in Maduro's case. Nothing has been done, and Ortega, he 
changes the constitution so that he can get reelected. There is 
no separation of powers. But a democracy is more than an 
election.
    A democracy is ruling in a democratic way. It is making 
sure that the opposition, the minority, has a voice. Maduro's 
acts are those of a coward and a bully, and if the 
administration continues to allow his actions to go not even 
talked about then it is only going to embolden him.
    Throughout the past 6 weeks we have witnessed this ongoing 
democratic crisis in Venezuela go further and further and all 
we hear from the Obama administration is words and hardly even 
words, hardly even that.
    Why? I thank the members of our committee who have co-
sponsored a bill that would sanction those individuals who are 
committing human rights abuses in Venezuela. I am disappointed 
in the action of the OAS on Friday.
    To see democracies like the Dominican Republic, Colombia, 
other democratic nations that are democracies because they 
govern in a democratic way making the mistake of siding with 
the repressive regime in Caracas, not in solidarity with the 
people who are yearning for democratic change, that hurts me 
extensively.
    And we know about the ties between the Castro brothers and 
the Maduro regime. We have seen the Cuban troops who are there. 
More Cuban troops are coming every day. Military advisors are 
sent to Caracas to help Maduro oppress his own people.
    I cited how many deaths have occurred. Who has got the arms 
in Venezuela? Is it the students or is it the national guard 
and all of the thugs of Maduro? If these violent acts were 
occurring in other regions, Mr. Chairman, I think that we would 
act. But we choose to do nothing in Latin America. I think 
these countries are hurt by their proximity to the United 
States.
    Now, the President has correctly issued an executive order 
to sanction those in Russia who have undermined the democratic 
process and threatened the security of Ukraine. I applaud him 
for that.
    But no similar order has been signed for Venezuela. Those 
officials in Venezuela are killing young people on the streets. 
There have been tortures happening in the prisons. Young people 
have disappeared, and at the beginning of the Ukraine crisis 
many observers might have missed this interesting footnote, Mr. 
Chairman--that the Russian defense minister stated that Russia 
was in discussion with eight foreign countries, seeking 
overseas military facilities including three in our own 
hemisphere--Cuba, Venezuela and Nicaragua.
    And Russia continues to bolster its military in front of 
our faces. Last month the Russian spy ship--as we know, it was 
in the press--it was spotted allegedly in the Port of Havana. 
Just 2 years ago, a Russian submarine was spotted off Florida 
waters.
    Russia had sent three navy ships to our region that were 
docked in Venezuela and Nicaragua in 2008, and in the earlier 
part of this decade the Russians withdrew from the Lourdes 
intelligence facility in Cuba, in my native homeland, but they 
can always come back.
    And what about China? Not only is Russia there, not only is 
Cuba there but China is in Latin America as well. Chinese 
investors are looking to build a canal in Nicaragua where 
opponents believe that this tactic is just a way to funnel 
money to Daniel Ortega and his cronies.
    And we see, as Mr. Berman had pointed out, Iran, Hezbollah, 
other foreign terrorist organizations that are using narco 
trafficking to fundraise with their illicit activities abroad.
    So we can't properly address these issues if this 
administration does not put more resources and more attention 
to Latin America. We must not turn our back on the people of 
the Americas because this will allow rogue regimes to fill the 
void that American leadership has left behind.
    So I wanted to ask the panelists, if I might, Mr. Chairman, 
about two issues--the North Korean ship from Cuba carrying 
illicit military equipment that was stopped by the Panamanians 
in the canal and the Colombian peace talks with the FARC that 
is taking place, in a bitter irony, in a state sponsor of 
terrorism country, Cuba.
    And I am sorry if you had discussed those before while I 
was in and out.
    Mr. Claver-Carone. We did.
    Ms. Ros-Lehtinen. What was the conclusion?
    Mr. Claver-Carone. Very briefly, we keep speculating about 
all these issues that are upcoming whether it is Iran, whether 
it is Russia, et cetera, and we have an opportunity to draw a 
line, and the line that we are going to draw right now in 
regards to North Korea.
    These shipments weren't, as I said, just a few arms that 
were being sent. It was the largest violation--I am sorry to be 
repetitive--the largest violation of U.N. sanctions to North 
Korea ever since it was----
    Ms. Ros-Lehtinen. What do you think is going to happen now 
that we know that and they have issued their interim report?
    Mr. Claver-Carone. The U.N. panel of experts took it to, 
obviously, now to the Security Council. They said that there 
was obviously a conscious violation of international sanctions 
and now the Security Council there is going to decide and they 
are going to see there are individual entities that should be 
sanctioned, et cetera.
    Obviously, we know for a fact that the Cuban military's 
conglomerate, GAESA, had something to do with it because every 
single transaction that had to do with the shipment involved 
GAESA which, by the way, is headed by General Luis Alberto 
Rodriguez Lopez-Callejas, which is Raul Castro's son-in-law and 
runs the entire tourism industry in Cuba as well, which we are 
also continuing to feed into.
    That being said, whether the U.N. Security Council is going 
to in any way sanction GAESA or any of these individuals, I 
wouldn't hold my breath. At the end of the day, as I mentioned, 
obviously, Russia plays a part in this.
    China, which protects North Korea, plays a part in this. 
Thus, if the United States does not draw a line in the sand in 
regards to these weapons sales, which is extraordinarily 
egregious with the facts that I mentioned in my testimony, we 
are welcoming the speculation in regards to Russia, I should 
say.
    Ms. Ros-Lehtinen. Yes. And would you say that now I think 
the biggest problem that we might face is a move by some folks 
to take Cuba off the state sponsor of terrorism list?
    They have sort of decided they don't have the votes because 
of a lot of the hard work that we have done in Congress and so 
now, lamentably, we didn't put that in Helms-Burton so that is 
a decision that is made by the executive branch.
    That is why I worry about these Colombia peace talks with 
the FARC taking place in Cuba. If an agreement is reached it 
would be used by saying hey, Cuba is no longer a terrorist 
country because it was the site of this honeymoon even though 
they just broke international sanctions with North Korea with 
this illegal shipment of arms. Do you see the move now to take 
Cuba off the state sponsor of terrorism?
    Mr. Claver-Carone. Obviously, the biggest effort that is 
being made by folks that advocate normalized relations with 
Cuba is to take them off the state sponsor of terrorism list.
    This is what is being pressed mostly because it is a 
unilateral decision of the President. But there is legislative 
guidance to it, and in the legislative guidance to it 
essentially what they would need to qualify is that there needs 
to be a commitment from the Cuban Government that the United 
States accepted that they would not be involved in any of these 
acts in the future.
    Now, the fact that they have been caught red-handed and the 
fact that the U.N. panel of experts has shown that they have 
been involved in some of these shipments in the past and there 
is a lot of speculation into because there was a lot of these 
patterns, well, pretty much clearly shows that they cannot be 
trusted in that regards.
    And in regards to the FARC, I would note that there was 
just recently indictments in Federal court in Virginia against 
other low-level FARC individuals who are now in Cuba as part of 
this extraordinarily large delegation.
    Now, this delegation keeps getting larger and larger and 
larger with lower and lower-level officials because, you know, 
guess what, they are being indicted here in the United States 
for terrorism and for some egregious acts and now they are 
going to be in Cuba.
    Are they going to ever come and face justice here? Probably 
unlikely. The fact as well that Joanne Chesimard was named to 
the top 10 most wanted terrorist list is what also makes it 
very difficult to justify their removal from that list. A 
recent BBC documentary on Gaddafi brought about--they refound, 
rekindled Frank Terpil. Who is Frank Terpil, many of you 
recall, was the rogue CIA agent who sold nuclear material, who 
led Gaddafi's hit squads and they interviewed him once again 
guess where? In Cuba.
    Frank Terpil is still around and, obviously, we know what 
he did. So all these things adding up makes it, I think, would 
make it very difficult to justify the removal of Cuba from the 
state sponsor list.
    Ms. Ros-Lehtinen. Ambassador Reich.
    Ambassador Reich. You are the chairman of the Western 
Hemisphere--I mean, sorry, the Middle East Subcommittee so--
sorry about that, madam.
    I think that, to make a comparison, to have the talks 
between the FARC and the Government of Colombia in Havana would 
be the media equivalent of having talks between Hamas and 
Israel in Tehran. That is about how much sense it makes.
    Let me give you also an anecdote about Colombia that goes 
to a lot of the statements that have been made here, and I am 
very sorry that Mr. Meeks left because I really wanted to 
engage him in a little dialogue about some of the facts that he 
apparently has gotten wrong about what happened in Venezuela 
because I was Assistant Secretary when some of those things 
that he claims happened did not happen.
    But on Colombia, in 1991 then President Bush 41 pulled me 
out of retirement, one of my many retirements, and asked me to 
go to the U.N. Human Rights Commission in Geneva. That was the 
year that the first Gulf War started.
    In fact, it was the day that the first Gulf War started. We 
were trying to get the Latin American Governments, among other 
things--that was my job, several continents including Latin 
America--to support several human rights declarations. One of 
them was on Cuba.
    The Colombian Ambassador to the Human Rights Commission and 
I became friends. Over a period of weeks I tried to lobby him 
to support a very simple resolution asking for a special 
rapporteur from the U.N. Human Rights Commission to examine the 
conditions of Cuban jails, which Castro has never allowed 
examination by international bodies.
    And finally, after 4 weeks of lobbying him, he admitted--he 
lost his patience with me and in a very friendly manner said, 
you know, collega--he said, my colleague, he says, you know 
that Colombia could never accompany the United States in this 
project, as he called it, this resolution, he said, because you 
know what Fidel Castro is able to do and has done in my 
country. And I said what is that.
    I knew, but I wanted to hear him say it. He says, he has 
killed, he has kidnapped, he has supported the terrorists. He 
says, we cannot vote against Cuba at the United Nations.
    Now, I reported that. That is in the annals of the State 
Department somewhere in that huge warehouse where the Raiders 
of the Lost Ark is stored--or the Ark itself, I should say.
    And in the files of the State Department there is that 
conversation and it is an incredible admission by a strong 
democratic government that they could not vote against Cuba, as 
he put it, even on a human rights resolution at a multilateral 
forum, and this is why, to go back to Mr. Sires' question why 
does the OAS not work?
    Not because it is the OAS but because it is a multilateral 
forum and the countries' personalities change when they are 
surrounded by other diplomats who get together every afternoon 
and talk to each other day after day and have drinks and 
reinforce each other's prejudices, one of which is that they 
don't like the United States.
    I, frankly, have to say that I am so happy I was never 
asked, except for that--twice the President asked me to go to 
Geneva for the Human Rights Commission.
    I think multilateral fora are inherently corrupt, 
intellectually corrupt, and so that is why we need to do our 
effective diplomacy at the bilateral level.
    Ms. Ros-Lehtinen. They are afraid of Castro for that reason 
and Maduro they don't want to vote against him because they 
like the cheap or free gas.
    Ambassador Reich. Again, Madam Chairman, I said in my 
remarks that Cuba is an organized crime state. It is run like 
the Mafia is run. When Castro doesn't like somebody, what 
they're doing to them--like for example, Pinera in Chile.
    Pinera's problems with the student movement in Chile was 
not coincidental. It was aided and abetted by Castro as a way 
to keep Pinera from moving Chile too far to the center. After 
20 years under the coalition of the socialists and the 
Christian Democrats, finally Sebastian Pinera, a conservative, 
was elected, and guess what?
    All of a sudden there is all of these problems with the 
students that completely divert President Pinera's agenda from 
doing what he wanted to do. If you were to ask the CIA to give 
you information about Cuban involvement in the student movement 
rebellion, if you want to call it that, against Pinera, 
unfortunately, I am now out of the government so you can't 
share it with me but I would urge you to do that----
    Ms. Ros-Lehtinen. Thank you.
    Ambassador Reich [continuing]. As well as other examples 
that I would be happy to tell you about.
    Ms. Ros-Lehtinen. And thank you, Mr. Ambassador. So sorry I 
ran over time. Thank you, Mr. Chairman. Thank you very much.
    Mr. Salmon. You know what? This has been so important and 
so intriguing and we have got such a wonderful panel. I have 
not used the gavel at all today. I have let everybody go over.
    It was an incredibly important issue that we talked about 
today. I continue to believe that we have woefully neglected 
this hemisphere and I share with the gentlewoman frustration 
with some of these multilateral organizations and I think, 
Ambassador Reich, you have summed up a lot of my feelings.
    I think that a lot of these multilateral organizations are 
inherently corrupt in fact, not only do we not get value, it is 
actually counterproductive and it is very, very frustrating to 
me.
    There is an old axiom that you either act or you are acted 
upon, and I think that right now, and you said it, Mr. Berman, 
that nature fills a vacuum. Nature abhors that vacuum and fills 
that vacuum. We have neglected the hemisphere.
    I think foreign policy in general in the entire world has 
been neglected but here it is in our own neighborhood and it 
has been woefully neglected and someday we are going to pay the 
price.
    I don't think anybody expected a few months ago that Russia 
would do what it did with Ukraine. We didn't expect that they 
would do what they did with Georgia.
    But it has happened and it is happening, and if we keep 
falling asleep at the switch as we have been for the last 
several years, not just the United States but the world is 
going to pay a hell of a price, and that is why I have let 
everybody say what they said today and thank you and thank the 
panel.
    And without any other business, this subcommittee is 
adjourned.
    [Whereupon, at 4:49 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
